19

IN THE SUPREME COURT OF THE UNITED STATES
No.
Henry Eugene Gossage v. Office of Personnel Management

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, Henry E. Gossage, pro se veteran, hereby certify that, according to the word-count
tool in Microsoft Word, the Brief of Petitioner consists of 4504 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The Brief
therefore complies with Rule 33.1(g).

PROOF OF SERVICE
I, Henry E. Gossage, pro se veteran, hereby declare that on the certify that on this
21st day of May 2021, submitted Petition for Certiorari and Affidavit and Motion to
Proceed as a Veteran, to Stephen Fung, Merit Systems Protection Board in the
above style proceeding, electronically via e-mail.

.Henry
—M
ELjGossage
Pro se Veteran
9421 Johnson Pt Lp NE
Olympia, WA 98516
(360) 951-7826
hegossage @gmail.com

